CERTIFICATE OF SERVICE
NO. TBD
Equal Means Equal, The Yellow Roses, And Katherine Weitbrecht
Petitioner(s)
v.
David S. Ferriero, Archivist of the United States
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the EQUAL
MEANS EQUAL, THE YELLOW ROSES, AND KATHERINE WEITBRECHT PETITION FOR WRIT OF
CERTIORARI, by mailing three (3) true and correct copies of the same by USPS Priority mail, postage
prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for United States of America

Lucas DeDeus

September 2, 2020
SCP Tracking: Murphy-154 Stuart Street-Cover White

